                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                September 9, 2008



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    MEMORANDUM REPORT: AUDIT OF THE NUCLEAR
                            REGULATORY COMMISSION’S USE OF REEMPLOYED
                            ANNUITANTS (OIG-08-A-15)


The Office of the Inspector General (OIG) conducted this audit to determine the Nuclear
Regulatory Commission’s (NRC) compliance with relevant laws, regulations, and Office
of Personnel Management (OPM) guidance concerning rehiring annuitants.
Additionally, OIG examined how NRC uses reemployed annuitants to accomplish the
agency’s mission. OIG found that the agency’s reemployed annuitant process is carried
out in compliance with policy, and the work performed by the reemployed annuitants is
consistent with NRC’s mission. Further, during the audit, the Executive Director for
Operations (EDO) issued and implemented a revised policy on granting pension offset
waivers to reemployed annuitants. Therefore, OIG makes no recommendations.


BACKGROUND

NRC currently uses a wide variety of human capital policies, programs, and strategies
for recruiting, hiring, training and developing, and retaining skilled professionals. One of
the human capital strategies is the use of reemployed annuitants. Rehiring a retired
employee has become more common in the Federal Government and now at the NRC
because these former agency employees possess critical skills in areas such as nuclear
reactors, new plant construction, fuel cycle operations, information technology, and
project management that may be otherwise hard to find. This strategy enables the
agency to meet its mission using experienced, skilled individuals who are willing to
continue working after retirement. Absent authority to waive pension offset, the salaries
of reemployed annuitants must be reduced by their retirement annuity, also called
pension offset.
                                    Audit of the Nuclear Regulatory Commission’s Use of Reemployed Annuitants



The Energy Policy Act of 2005 authorizes NRC to eliminate the pension offset, on a
case-by-case basis, for the reemployment of a Federal civilian retiree in a position for
which there is exceptional difficulty in recruiting or retaining a qualified employee, or
when a temporary emergency hiring need exists. The act also requires that NRC
establish procedures for exercising this authority, including the criteria and procedures
for any delegation of authority.

In March 2006, the EDO issued policy and procedures to implement the pension offset
waiver provision. These procedures state that an Office Director or Regional
Administrator may request approval of a pension offset waiver by submitting a request
to the Chairman or the EDO, as appropriate, through the Office of Human Resources
(HR) and the Federal Employees Pay Comparability Act Senior Management Review
Panel (FEPCA Panel).1 The NRC pension offset waiver approval process is illustrated
as follows.

                       NRC Pension Offset Waiver Approval Process2




NRC’s HR, Human Resources Policy and Programs Branch, administers the
reemployed annuitant process. Between October 1, 2006, and March 31, 2008, NRC
had 134 reemployed annuitants.3 During the same period, the earnings of these
employees totaled more than $13.5 million. Of these, 118 received a pension offset
waiver, while 16 had their NRC salary reduced by the amount of their pension.

A reemployed annuitant is appointed as a Special Government Employee (SGE) or as a
regular employee. Some of the differences between these two appointments are:

        •   SGE appointments must end with the fiscal year cycle but may be eligible for
            reappointment the following fiscal year; regular employee appointments for
            reemployed annuitants typically do not exceed 2 years.

        •   SGEs are limited to working 130 days per fiscal year; regular employees have
            no restrictions on the number of days they may work.


1
  The NRC FEPCA Panel also reviews and makes recommendations regarding recruitment, relocation and retention
incentives, and student loan repayments.
2
  When any one of the approving officials disapproves a waiver request during the NRC pension offset waiver
approval process, HR returns the request to the originator for appropriate action.
3
  Of the 134 reemployed annuitants, 106 are currently active.
                                                      2
                                Audit of the Nuclear Regulatory Commission’s Use of Reemployed Annuitants



         •   SGEs work an intermittent schedule, whereas regular employees may work
             an intermittent schedule or an established part-time or full-time schedule.


PURPOSE

The objectives of this audit were to (1) determine NRC’s compliance with relevant laws,
regulations, and OPM guidance concerning reemploying annuitants, and (2) ascertain
how NRC uses reemployed annuitants to accomplish the agency’s mission.

RESULTS

OIG found that:

   •     The process used to reemploy annuitants is conducted in compliance with policy.

   •     The work performed by reemployed annuitants is consistent with NRC’s mission.


       A. PROCESS IS CARRIED OUT IN COMPLIANCE WITH POLICY

NRC’s process for rehiring individuals receiving a pension annuity is generally compliant
with applicable agency and OPM policy requirements.

                NRC Annuitant Reemployment Requirements

In order to reemploy annuitants, NRC must satisfy both its internal requirements and
requirements set forth by OPM. These requirements are as follows:

   •     NRC policy requires that managers requesting reemployment of annuitants with
         waiver of pension offset address specific factors outlined in the section following.
         This process enables deciding officials to make a determination concerning
         reemployment.

   •     OPM policy requires that annuitants and OPM be notified concerning salary and
         annuity adjustments.

                       NRC Pension Offset Waiver Policy Requirements

EDO Memorandum, Policies and Procedures for Implementation of the Provision for
Waiver of Pension Offset in the Energy Policy Act of 2005, dated March 15, 2006, sets
forth NRC’s process for implementing the pension offset waiver provision. NRC policy
requires that waiver requests submitted by managers include factors such as:

   •     A description of why the individual’s knowledge, skills, and abilities are important
         to the agency.

                                                 3
                               Audit of the Nuclear Regulatory Commission’s Use of Reemployed Annuitants



   •   The nature of the position and its importance to agency function.

   •   Other staffing alternatives and why these alternatives have not been or are not
       anticipated as being successful.

   •   A description of the difficulty recruiting or retaining a qualified employee or, if
       appointed because of a temporary emergency hiring need, a description of the
       emergency.

   •   Information about the proposed appointee’s duties.

   •   An indication that the individual is unwilling to return to work unless a waiver is
       granted.

                     Requests for Waivers Address Factors

The majority of pension offset waiver requests reviewed by OIG addressed the required
factors in accordance with agency policy. OIG analyzed a random sample of 30
pension offset waiver requests submitted to HR and approved by the FEPCA Panel and
EDO, or Chairman, and found that 28 waiver requests (or approximately 93 percent)
contained the required factors. Of the pension offset waiver requests reviewed:

   •   One omitted the description of the temporary emergency and how the emergency
       is beyond the scope of NRC’s normal responsibilities.

   •   One omitted an indication that the annuitant is unwilling to return to work unless
       granted the waiver.

Based on this review, OIG determined that waiver requests are generally compliant with
agency policy.

                     NRC Follows OPM Notification Policy

In accordance with OPM policy, NRC notifies annuitants and sends OPM
documentation concerning salary and annuity adjustments for reemploying individuals
who receive a pension annuity. NRC staff complete and send the OPM form,
Notification of Reemployment of an Annuitant, with a copy of Standard Form 50,
Notification of Personnel Action, to enable OPM to determine continued eligibility for
annuity. In addition, NRC staff discuss with the annuitants the effect of reemployment
on their earnings. To ensure that documentation and notification steps are completed
before the employee is included in the NRC personnel and payroll systems, NRC staff
use a Checklist for Processing Reemployed Annuitants during the hiring process.




                                                4
                                 Audit of the Nuclear Regulatory Commission’s Use of Reemployed Annuitants



                      NRC Revised Policy

During this audit, NRC revised its policy for waiver of pension offset. On April 29, 2008,
the EDO issued a revised policy titled, Policy and Procedures for Implementation of
Authority to Waive Pension Offset. Among other things, this policy served to:

   •    Clarify the definition of temporary emergency hiring need.

   •    Clarify how recruitment efforts meet long term needs.

   •    Clarify definitions of exceptional difficulty recruiting and retaining qualified
        employees.

The revised policy also requires that managers more specifically address the following
factors:

   •    Explain case-by-case circumstances.

   •    Explain the nature of appointment and work schedule as well as the Energy
        Policy Act criterion that forms the basis for the request.

   •    Explain, with narrative, the FEPCA Panel approval section.

   •    Provide information for tracking number and type of appointments.

Although revisions to this policy were underway during the course of this audit, OIG
conducted its work based on the policy effective March 15, 2006.


       B. WORK PERFORMED CONSISTENT WITH NRC’S MISSION

Management has a fundamental responsibility to develop and maintain effective internal
control so that programs operate and resources are used consistent with the agency’s
mission. OIG compared work assignments performed by a sample of reemployed
annuitants with the work described in each employee’s pension offset waiver request.
OIG interviewed 10 randomly selected reemployed annuitants with pension offset
waivers. The reemployed annuitants described their assignments. The work performed
ranged from developing specialized security rules and reviewing documents for a
collaborative international report to training newly hired employees. Annuitants’
descriptions of their duties aligned with the information contained in the requests for
their pension offset waivers. OIG concluded that reemployed annuitants are performing
work described in their pension offset waiver requests to accomplish the agency’s
mission.




                                                  5
                             Audit of the Nuclear Regulatory Commission’s Use of Reemployed Annuitants



CONCLUSION

The NRC conducts the reemployed annuitant process in accordance with relevant laws,
regulations, and guidance. The agency’s revised policy contains procedures that
require requesting officials to include more information and detail in pension offset
waiver requests. These revised requirements should strengthen internal controls.
Furthermore, the work performed by reemployed annuitants facilitates NRC mission
accomplishment.


AGENCY COMMENTS

At an exit conference on September 3, 2008, NRC officials agreed with the report
contents and provided editorial suggestions, which OIG incorporated as appropriate.


SCOPE AND METHODOLOGY

OIG audited internal controls related to NRC’s use of reemployed annuitants. We
conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Steven Zane, Team Leader; Vicki Foster, Audit Manager; and
Robert Woodward, Auditor; conducted this audit from March 2008 to June 2008. We
performed the audit work at NRC headquarters in Rockville, MD.

If you have any questions or concerns regarding this report, please contact
Steven Zane, Team Leader, at 301-415-5912 or me at 415-5915.




                                              6
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
